                                                              National Railroad Passenger Corporation
                                                                            Office of Inspector General
                                                                                     10 G Street N.E., 3W-300
                                                                                      Washington, D.C. 20002




          AMTRAK EMPLOYEE USES FALSE SOCIAL SECURITY NUMBER
                           MARCH 11, 2013
                          CASE # PA-13-0047


An Amtrak employee used a false social security number to obtain employment as an Assistant
Conductor. An OIG investigation revealed that the employee was not currently a United States
citizen, nor was she at the time she was hired, and that the social security number was not valid.
The employee voluntarily resigned after being formally charged with violating Amtrak’s
Standards of Excellence.
